<html>
<title> - TELEWORK POLICIES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




                           TELEWORK POLICIES

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON TECHNOLOGY AND PROCUREMENT POLICY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2001

                               __________

                            Serial No. 107-1

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
72-126 DTP                  WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                  David A. Kass, Deputy Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

           Subcommittee on Technology and Procurement Policy

                  THOMAS M. DAVIS, Virginia, Chairman
JO ANN DAVIS, Virginia               JIM TURNER, Texas
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
DOUG OSE, California                 PATSY T. MINK, Hawaii
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                    Melissa Wojciak, Staff Director
              Victoria Proctor, Professional Staff Member
                          James DeChene, Clerk
                    Trey Henderson, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2001...................................     1
Statement of:
    Capito, Hon. Shelley Moore, a Representative in Congress from 
      the State of West Virginia.................................    19
    Cohen, Steve, Acting Director, Office of Personnel 
      Management; David L. Bibb, Acting Deputy Director, General 
      Services Administration; Mark Lindsey, Acting 
      Administrator, Federal Railroad Administration; Tony Young, 
      Director of Government Activities, NISH; Dr. Braden 
      Allenby, vice president for Environment, Health & Safety, 
      AT&T; and Jennifer Thomas Alcott, Fredericksburg Regional 
      Telework Center............................................    27
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia..........................................    15
    Morella, Hon. Constance, a Representative in Congress from 
      the State of Maryland......................................    22
Letters, statements, etc., submitted for the record by:
    Alcott, Jennifer Thomas, Fredericksburg Regional Telework 
      Center, prepared statement of..............................    87
    Allenby, Dr. Braden, vice president for Environment, Health & 
      Safety, AT&T, prepared statement of........................    68
    Bibb, David L., Acting Deputy Director, General Services 
      Administration, prepared statement of......................    38
    Capito, Hon. Shelley Moore, a Representative in Congress from 
      the State of West Virginia, prepared statement of..........    21
    Cohen, Steve, Acting Director, Office of Personnel 
      Management, prepared statement of..........................    30
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     7
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia, prepared statement of...................    13
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Lindsey, Mark, Acting Administrator, Federal Railroad 
      Administration, prepared statement of......................    48
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    17
    Morella, Hon. Constance, a Representative in Congress from 
      the State of Maryland, prepared statement of...............    24
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................    10
    Young, Tony, Director of Government Activities, NISH, 
      prepared statement of......................................    58

 
                           TELEWORK POLICIES

                              ----------                              


                        THURSDAY, MARCH 22, 2001

                  House of Representatives,
 Subcommittee on Technology and Procurement Policy,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:16 p.m., in 
room 2154, Rayburn House Office Building, Hon. Thomas M. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Tom Davis of Virginia; Jo Ann 
Davis of Virginia, Horn, and Turner.
    Also present: Representatives Morella, Moran of Virginia, 
Capito, and Wolf.
    Staff present: Melissa Wojciak, staff director; Amy 
Heerink, chief counsel; Victoria Proctor, professional staff 
member; David Marin, communications director; James DeChene, 
clerk; Trey Henderson, minority counsel; and Jean Gosa, 
minority assistant clerk.
    Mr. Tom Davis of Virginia. I apologize for the delay. We 
have been voting on the floor. I call the meeting to order.
    Good afternoon and welcome to the Subcommittee on 
Technology and Procurement Policy's first oversight hearing. I 
am pleased to chair this newly created subcommittee. I look 
forward to a long and productive relationship with my new 
ranking member, Congressman Jim Turner of Texas.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record.
    Without objection, it is so ordered.
    I also ask unanimous consent that all articles, exhibits, 
and extraneous or tabular material referred to be included in 
the record.
    Without objection, so ordered.
    Mr. Tom Davis of Virginia. I think that today's hearing 
will be quite valuable. We will examine Federal Government 
agencies' efforts to create and promote telecommuting programs.
    Telecommuting is an initiative which permits employees to 
work away from the traditional workplace, generally at home or 
in the work centers. Technological advances have made 
telecommuting an attractive choice for employees because it 
gives them the flexibility to work almost anywhere at any time.
    The telework movement has gained momentum over the last 25 
years and has become an option for Federal employees over the 
last decade. Today, approximately 19 million people 
telecommute, and the number is increasing, going up every day.
    Telecommuting has gained popularity because it promotes a 
productive work force and increases employee morale and quality 
of life, often resulting in higher rates of worker retention. 
It reduces office distractions, thereby increasing work time. 
It also helps the environment by eliminating a significant 
number of vehicle trips during peak hours.
    Telecommuting is an option that allows employees the 
flexibility to manage family responsibilities or health 
problems without giving up their careers.
    In the information age, skilled human capital is critical 
to maintaining continuity and efficiency in the workplace. 
However, the Federal Government is experiencing a crisis in 
this area. It is costly to recruit, to hire, and train new 
staff on a constant basis. Therefore, the Federal Government 
needs to develop programs and policies to attract a skilled 
work force, and telecommuting is critical to its recruitment 
and retention efforts.
    Telework is an area where the Federal Government should be 
a leader. Instead, we are lagging significantly behind the 
private sector. In recognition of this, Congress passed Public 
Law 106-346 last year, which requires Federal agencies to 
develop a plan by next month to allow 25 percent of the 
eligible Federal work force to telecommute. An additional 25 
percent must be permitted to telecommute each year over the 
next 3 years.
    I would like to take this opportunity to thank my friend 
and colleague, Congressman Frank Wolf, for being here. 
Congressman Wolf was the principal architect of the 
telecommuting provision.
    Additionally, the subcommittee has invited to the hearing 
members of the local congressional district, in which General 
Services Administration operates 16 telework centers with its 
various partners. I would like to thank Congressman Jim Moran, 
Congresswoman Connie Morella, and Shelly Moore Capito for 
attending today, along with our subcommittee vice chairman, Jo 
Ann Davis, from the First District of Virginia, and Steve Horn, 
a Representative from California.
    Telework can fundamentally alter the culture of the 
organization. Naturally, there are still many concerns 
associated with the Federal telework program that need to be 
addressed, including managers' concerns about maintaining 
office productivity with fewer workers in the main workplace; 
two, managers who assume that if they cannot see an employee 
working, they are slacking off; three, ensuring the necessary 
funding is available to support teleworkers; four, ensuring the 
security of government records if they are removed from the 
main workplace.
    So we will assess the telecommuting training policies 
established by OPM and GSA and try to address these issues. 
Additionally, we will focus on what further actions are 
necessary in order to successfully complete the implementation 
of this initiative.
    The subcommittee will hear testimony from Mr. Steve Cohen 
of OPM; Mr. David Bibb of GSA; Mark Lindsey, acting Director of 
the Federal Railroad Administration; Tony Young, Director of 
Government Activities from NISH, a Federal contractor; Dr. 
Braden Allenby of AT&T; and Jennifer Alcott of the 
Fredericksburg Regional Telework Center.
    We anticipate having with us members of the full committee 
who are not on the subcommittee, as well as members who are not 
part of the full committee.
    I ask unanimous consent that they be permitted to 
participate in today's hearing.
    Without objection, it is so ordered.
    I yield to our ranking minority member, Congressman Turner, 
for any opening statement he wishes to make.
    [The prepared statement of Hon. Thomas M. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T2126.001
    
    [GRAPHIC] [TIFF OMITTED] T2126.002
    
    Mr. Turner. Thank you, Mr. Chairman. Let me say at the 
outset I'm looking forward to the opportunity to work with you 
on this newly formed Subcommittee on Technology and Procurement 
Policy. I know that you have set forth an aggressive agenda and 
that your interest and leadership in the technology field will 
make this a very interesting committee for all of us to be part 
of.
    It is, of course, appropriate that we have the hearing 
today on the subject of telecommuting. We all understand that 
there is a crisis in terms of attracting human capital to the 
Federal Government. This was pointed out in a January report 
from the General Accounting Office that described the Federal 
Government's human capital management practice as a high 
priority crisis.
    Telecommuting is one way that we in the Federal Government 
can attempt to be competitive with the private sector by 
creating employment opportunities that are competitive with the 
private sector. We all understand that telecommuting can be a 
way of increasing productivity and morale and retention in the 
Federal Government, as well as recruitment. So this is a good 
opportunity for us to see what progress we have made or have 
not made.
    As we all understand, there is a provision in Federal law 
that requires the development of a plan, and it is now in the 
process of being implemented. Of course, we are here today to 
review the progress that we have made.
    I want to mention, Mr. Chairman, one of the members of our 
Committee on Government Reform, Representative Elijah Cummings, 
had an interest in this hearing today and wanted to be here and 
join us, but was unable to do so.
    He introduced a bill last session, H.R. 4232, the Federal 
Workforce Digital Access Act, which provides for the 
development of a technologically proficient Federal work force 
by issuing all Federal employees a personal computer to 
facilitate e-learning, e-government, and telecommuting.
    He is going to introduce this legislation again, and he 
asked that I mention his interest in his legislation, as well 
as the subject at hand before this subcommittee today.
    I would request, Mr. Chairman, with your permission, that 
Mr. Cummings' prepared statement, that he was unable to be here 
to deliver, be included as part of the record.
    Mr. Davis. Without objection, so ordered.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] T2126.003

[GRAPHIC] [TIFF OMITTED] T2126.004

    Mr. Turner. Thank you, Mr. Chairman. I look forward to 
hearing from each of our witnesses.
    [The prepared statement of Hon. Jim Turner follows:]
    [GRAPHIC] [TIFF OMITTED] T2126.005
    
    [GRAPHIC] [TIFF OMITTED] T2126.006
    
    Mr. Davis. I recognize the vice chairman of the committee, 
the gentlewoman from the First District of Virginia, Mrs. 
Davis.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Chairman. I 
would like to take this opportunity to thank you for bringing 
this matter to the Subcommittee on Technology and Procurement 
Policy. I am looking forward to serving you and the 
subcommittee in this matter and in future oversights as we work 
to streamline government and make it more efficient and more 
effective.
    I would also like to thank our witness panel for joining us 
today, and especially Jennifer Alcott, who traveled from my 
district to provide us with her insight and experiences as the 
manager of three telework centers run by the Rappahannock Area 
Development Commission.
    Mr. Chairman, as you know, telecommuting and other quality-
of-life issues are a major concern for our Federal work force. 
Recent reports have suggested that over half of our Federal 
employees will be eligible to retire within this decade.
    The Federal Government has not kept pace with the private 
sector in compensation and in other benefits. That fact, 
coupled with the unpleasant honor of being known as one of the 
Nation's most congested cities, only hinders our efforts to 
attract and retain qualified Federal employees in the 
Washington metropolitan area.
    Just yesterday morning a staffer of mine spent 3 hours on 
the road trying to reach Capitol Hill from northern Stafford 
within my district, a distance of only 42 miles. That is an 
average of 14 miles an hour. He represents just one of 
thousands of Federal commuters who leave their homes at dawn in 
an attempt to do battle with our highways and transit systems.
    We expect this work force to show up for work and produce, 
and yet congestion stands in their way. We need to do better, 
Mr. Chairman. We know that telecommuting helps us get there.
    I know the Washington metropolitan area has a world-class 
subway system and mass transit system and an extensive HOV 
program and growing rail utilization, but we must encourage 
alternatives to congestion when it comes to our valued Federal 
work force. Flex-time, 4-day week options, and of course 
telecommuting and other alternatives will assist us in creating 
more family friendly workplace environments and increase the 
quality of life for our hard-working Federal work force.
    We must continue to encourage telecommuting.
    Thank you again, Mr. Chairman, for making this our focus 
today.
    Mr. Tom Davis of Virginia. Thank you very much.
    [The prepared statement of Hon. Jo Ann Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T2126.007
    
    [GRAPHIC] [TIFF OMITTED] T2126.008
    
    Mr. Tom Davis of Virginia. I recognize the gentleman from 
California, Mr. Horn.
    Mr. Horn. Mr. Chairman, I commend you. This is truly a good 
chance to look at this sort of spectrum between one end of this 
country and elsewhere, and we know it has worked very 
successfully in some agencies. It has done very fine with a lot 
of corporate situations.
    In an era where mothers would like to raise their children 
and could also do some excellent work, I look forward to the 
conclusions you will make. Thank you for doing it.
    Mr. Davis. Thank you very much.
    I now recognize another champion of telecommuting, the 
gentleman from Alexandria, VA, Mr. Moran.

STATEMENT OF HON. JAMES P. MORAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Moran. Thank you very much, Mr. Chairman. Thank you for 
championing telecommuting in every way to enhance the 
effectiveness of our Federal Government work force. As you 
know, Congressman Wolf has been very active on this, as well. 
But I particularly want to thank you for having this hearing, 
Chairman Davis.
    As we will hear from our witnesses, telecommuting provides 
for a work arrangement that is beneficial both to employers and 
employees. Furthermore, telecommuting cuts down on traffic 
congestion and air pollution, two issues that affect all of us, 
especially constituents who commute from northern Virginia 
suburbs to work in the District every day.
    We are way over on our air quality attainment standards, 
and that is one more very important benefit of telecommuting.
    I want to touch upon another perspective that brings added 
weight to the importance of this issue. The impending work 
force shortage within the Federal Government promises to 
seriously cripple the ability of our government to meet the 
needs of our citizens unless personnel issues such as 
telecommuting are adequately addressed.
    A few figures bring home this point. According to the 
Washington Post, about 30 percent of the government's 1.6 
million full-time employees--and we are talking about 
approximately 500,000 people--will be eligible to retire within 
5 years, and an additional 20 percent would seek early 
retirement.
    Furthermore, 65 percent, two-thirds of the Senior Executive 
Service, will be eligible for retirement by the year 2004. 
These statistics represent a serious drain on our human capital 
that we cannot ignore. As the Federal work force faces the 
prospect of losing an unprecedented number of employees over 
the next 5 years, it is imperative that government policies 
encourage, rather than discourage, the retention of our most 
capable workers.
    Many of the bills that we have introduced in this Congress 
and in past Congresses try to make the Federal Government a 
more attractive career option. Whether it is expanded transit 
vouchers to all Federal employees, granting overtime pay for 
Justice Department attorneys, ensuring retirement benefits are 
calculated equitably for Federal employees with part-time 
service, our policies must proactively create a family friendly 
workplace if the Federal Government is to meet its 
responsibilities.
    Telecenters undoubtedly further that goal as many work and 
life managers within Federal Government agencies actively 
promote the program.
    While telecommuting can be done from home, telecenters 
offer many attractions that home telecommuting cannot match, 
including a quieter and better equipped work environment. Thus, 
for telecommuting to be a viable option, telecenters have to 
thrive.
    I am encouraged by OPM's and the GSA's efforts to further 
family friendly workplaces through their support of 
telecenters. Yet, as you will probably agree, the results have 
not been spectacular by any measure. Although users appear to 
love telecenters, high costs and low utilization currently make 
the program a poor investment. Some of our witnesses will touch 
upon those points.
    I look forward to discussing these issues with them during 
the question and answer period.
    Again, thanks for having this hearing, Chairman Davis. I 
appreciate all my colleagues for being here, as well.
    [The prepared statement of Hon. James P. Moran follows:]
    [GRAPHIC] [TIFF OMITTED] T2126.009
    
    [GRAPHIC] [TIFF OMITTED] T2126.010
    
    Mr. Tom Davis of Virginia. Thank you. Thank you for being 
here.
    The gentlewoman from Maryland, Mrs. Morella.
    Mrs. Morella. Mr. Chairman, I wouldn't mind--not 
relinquishing, but allowing Mrs. Capito to speak before me, 
since she arrived before me.
    Mr. Tom Davis of Virginia. That will be fine. You are a 
member of the full committee. That is why you were recognized 
out of protocol.
    I will be pleased to recognize another advocate for 
telecommuting, the gentlewoman from West Virginia, Mrs. Capito.

  STATEMENT OF HON. SHELLEY MOORE CAPITO, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mrs. Capito. Thank you, Congresswoman.
    I would like to thank Chairman Davis for giving me the 
opportunity to share my views on telecommuting with the 
subcommittee today.
    I represent the Second District of West Virginia, one of 
the largest congressional districts east of the Mississippi, 
but the Second District includes West Virginia's eastern 
panhandle, that part that goes like that, of Jefferson, 
Berkeley, and Morgan Counties.
    The panhandle is just over an hour's drive from Washington, 
DC, and many Federal employees have relocated to West Virginia, 
for obvious reasons, in recent years in an attempt to improve 
the quality of life for themselves and their families. This is 
a trend that is likely to continue as the eastern panhandle is 
the fastest growing region of my State of West Virginia.
    This influx of Federal workers to the panhandle has led to 
significant interest in the advantages of telecommuting. There 
is only one telecommuting center in West Virginia, located in 
the town of Ranson in Jefferson County. In fact, the director 
of that center, Niljde Gedney, is here in the audience today.
    Through discussions with Nildje and others at the Ranson 
Telecenter, it is clear that interest in telecommuting is 
growing rapidly in that area. Presently there are no fewer than 
79 Federal employees on a waiting list to use our telecommuting 
center in Jefferson County. There is an overwhelming employee 
interest in telecommuting, but minimal permission or support 
from the agency that they work for. From what I understand, 
other telecenters report similar situations.
    Public interest in telecommuting should not come as a 
surprise. Telework saves time, thus contributing to a better 
balance between work and family needs. From the standpoint of 
worker productivity, it makes common sense. Less time in the 
rush hour traffic commute leads to less stress and increased 
employee output.
    Telecommuting is not only beneficial to the employee, it is 
highly efficient and cost-efficient for the government. Savings 
comes in a variety of forms, including reduced office space, 
fewer sick leave absences, and energy conservation.
    According to a recent report by Government Executive News, 
the U.S. Government Patent and Trademark Office conducted a 
telecommuting experiment designed to aid in employee retention 
and help relieve office crowding. After 2 years, the agency 
found that telecommuting employees were 38 percent more 
productive than employees who work in the agency office.
    As Chairman Davis said in his opening statement, telework 
is an area where the Federal Government should be a leader. Mr. 
Chairman, I strongly agree. Unfortunately, instead of leading 
the way, the Federal Government has lagged behind, preferring 
to linger among the 19th century ideas of bricks and mortar 
rather than to move into the 21st century, a century in which 
neither work nor opportunity is limited by geography or 
distance.
    I would like to thank Representative Frank Wolf for his 
leadership in telecommuting initiatives, including his key role 
in the passage of the law which would require Federal agencies 
to permit more employees to telecommute.
    I would like to thank Chairman Davis for organizing today's 
hearing and giving me the opportunity to address the 
subcommittee. I look forward to hearing the comments from 
today's witnesses, and I am confident that we can all work to 
make telecommuting a realistic and viable option for interested 
Federal employees.
    Thank you.
    Mr. Tom Davis of Virginia. Thank you very much.
    [The prepared statement of Hon. Shelley Moore Capito 
follows:]
[GRAPHIC] [TIFF OMITTED] T2126.011

    Mr. Tom Davis of Virginia. Mrs. Morella, would you like to 
make a statement now?

   STATEMENT OF HON. CONSTANCE MORELLA, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mrs. Morella. Thank you, Mr. Chairman. I also thank you for 
holding this critical hearing on teleworking in the Federal 
workplace.
    As you mentioned, I am on the full committee, not on your 
subcommittee, but I am on Civil Service and previously had 
chaired Technology in the Committee on Science; and it all 
comes together. So I very much appreciate your having this 
hearing.
    With 25 Federal agencies located in my congressional 
district, this issue is of utmost importance to my 
constituents. I also want to add my thanks to Mr. Wolf for all 
of his efforts to ensure that the Federal Government's support 
of telework programs and incentives is coming about. Certainly 
the fact that he put into the DOT appropriation the requirement 
for the Federal agencies to move forward with teleworking is 
very important.
    I look forward to the day that the entire Federal work 
force will telework to the maximum extent possible. That is why 
this hearing is so important, to find out what impediments 
there are and what barriers, and what we can do to make sure 
the process works.
    I also want to commend Mr. Wolf for a bill that I am a 
cosponsor of--and I believe most of us here are; I know you 
are, Mr. Chairman--H.R. 1012, the Telework Tax Incentive Act. 
With its passage, individuals and companies will be eligible 
for a $500 Federal tax credit for expenses under a teleworking 
arrangement. The telework tax incentive will enable individuals 
to acquire the furnishings and electronic information equipment 
that are necessary to telework. I hope this critical piece of 
legislation moves quickly out of committee and onto the House 
floor.
    While there is no magic bullet that will solve all of our 
Nation's problems, teleworking comes somewhat close, and as has 
been noted, for every 1 percent of the Washington metropolitan 
region work force that telecommutes, there is a 3 percent 
reduction in traffic delays.
    Teleworking, in turn, benefits the environment by reducing 
the number of vehicles and the amount of their harmful 
emissions. Fewer vehicles also means less gas and oil 
consumption. I feel that teleworking programs and incentives 
should be a key component in any energy conservation program. 
Only when our Nation is less dependent on oil to fuel our 
economy will we be less susceptible to the influence of foreign 
oil producers.
    Teleworking also removes barriers to stay-at-home parents, 
the elderly, and the disabled. These groups can make 
significant contributions to the business world, but are often 
unable to leave their homes. Eventually, telework will supplant 
our perception of ``workplace location'' as an essential to 
workplace productivity.
    Finally, telework will serve many families well by allowing 
parents to spend more time with their children. A working 
parent no longer has to be an absent parent. Picking your 
children up from the bus stop should not be an anomaly.
    Having been the chair of the Technology Subcommittee for 6 
years, I know full well the impediments to making telework 
programs a success. I know my colleague, Steve Horn, who 
chaired the parallel committee here in this Committee on 
Government Reform, would agree.
    Not every household has the space for a home office. Even 
if one did, an individual or company may not want to dedicate 
the necessary resources to furnishing it properly, at least 
until the Telework Tax Incentive Act passes. Broadband Internet 
access is also not available or even currently plausible in 
some neighborhoods. Without the ability to use the Internet and 
e-mail with minimal delays, an individual may waste valuable 
work time at home.
    The ultimate impediment to telework's success, of course, 
is the issue of trust. The idea that an individual only works 
when seated in a cubicle is simply outdated. This hearing must 
convince the Federal agencies of the private sector claims that 
telework programs increase productivity.
    These impediments will be overcome as technology advances. 
With laptops and palm pilots, our work force will be connected 
wherever they are.
    Today we are acting as architects of a new, mobile work 
environment, and with the cooperation of the Office of 
Personnel Management and the General Services Administration, 
the Federal Government will once again be an example for the 
various States and also for the private sector.
    Thank you again, Mr. Chairman, for the opportunity to be 
here at today's hearing. I look forward to hearing from our 
witnesses.
    [The prepared statement of Hon. Constance A. Morella 
follows:]
[GRAPHIC] [TIFF OMITTED] T2126.012

[GRAPHIC] [TIFF OMITTED] T2126.013

[GRAPHIC] [TIFF OMITTED] T2126.014

    Mr. Tom Davis of Virginia. Thank you very much, Mrs. 
Morella.
    I would like to ask our witnesses to step forward now. I 
may interrupt you in the middle if Mr. Wolf comes, because he 
has been such a father of telecommuting, and allow him to make 
a statement, but I think we will proceed.
    I would like each of you to step up and raise your right 
hands because, you know, in this subcommittee we swear our 
witnesses.
    We have Steve Cohen, Acting Director, Office of Personnel 
Management; David Bibb, Acting Deputy Director, General 
Services Administration; Mark Lindsey, Acting Deputy 
Administrator, Federal Railroad Administration; Tony Young, 
Director of Government Activities at NISH; Dr. Braden Allenby, 
vice president, Environment, Health and Safety at AT&T; and 
Jennifer Alcott, director of the Washington Metropolitan 
Telework Centers.
    [Witnesses sworn.]
    Mr. Tom Davis of Virginia. To afford sufficient time for 
questions, if the witnesses could limit themselves to 5 minutes 
in their oral statements, and all the written statements are 
going to be made part of the permanent record.
    We will start with Mr. Cohen and then we will move to Mr. 
Bibb, Mr. Lindsey, Mr. Young, Dr. Allenby, and Ms. Alcott.
    Please proceed, Mr. Cohen. Thank you for being with us 
today.
    I am sorry, Mr. Wolf is the father of telecommuting at the 
Federal level, so I will interrupt the witnesses.
    Frank, we appreciate your being here. We would like to 
offer you the opportunity to make a statement. Everybody has 
noted the significant contribution you have made for the 
legislation. We appreciate your presence.
    Mr. Wolf. I will be quiet and listen, but thank you, very 
much.
    Mr. Tom Davis of Virginia. Go ahead, Mr. Cohen.

STATEMENTS OF STEVE COHEN, ACTING DIRECTOR, OFFICE OF PERSONNEL 
  MANAGEMENT; DAVID L. BIBB, ACTING DEPUTY DIRECTOR, GENERAL 
 SERVICES ADMINISTRATION; MARK LINDSEY, ACTING ADMINISTRATOR, 
   FEDERAL RAILROAD ADMINISTRATION; TONY YOUNG, DIRECTOR OF 
GOVERNMENT ACTIVITIES, NISH; DR. BRADEN ALLENBY, VICE PRESIDENT 
  FOR ENVIRONMENT, HEALTH & SAFETY, AT&T; AND JENNIFER THOMAS 
        ALCOTT, FREDERICKSBURG REGIONAL TELEWORK CENTER

    Mr. Cohen. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss the 
Office of Personnel Management's efforts to promote telework by 
Federal employees.
    While OPM has been providing Federal agencies with guidance 
on telecommuting over the past decade, implementation has not 
been as quick as many would have liked, certainly not as quick 
as we would have liked.
    We believe this is partly due to misconceptions about 
telecommuting as a viable work option. However, the Federal 
Government is now faced with the need to become more 
competitive in the job market, and of course there is a greater 
need to reduce traffic congestion, particularly in the 
Washington, DC, metropolitan area.
    For these and for many other reasons the timing is right to 
accelerate efforts to help agencies recognize the value of 
telecommuting and increase its use as an important tool as we 
seek more efficient ways to work, to recruit and retain highly 
skilled employees, and to reduce traffic congestion and air 
pollution.
    We know from research that telecommuting can enhance 
productivity, morale, retention, and recruitment efforts, and 
therefore, can be of much benefit to Federal agencies in 
accomplishing their missions. For their part, employees realize 
financial benefits and savings from reduced commuting costs as 
well as an improved quality of life.
    We have taken a number of steps already to improve the 
utilization of telework. We are working with the General 
Services Administration to revise telework policies and issue 
new policy guidance that includes checklists and sample 
policies.
    We are developing distance learning training modules for 
supervisors and managers that are easy to use and provide 
concrete examples demonstrating how telework can be used 
successfully.
    We are posting telework information on a one-stop shopping 
page on our Web site. We are offering seminars on telework, 
such as our recent half-day seminar that was attended by over 
300 participants.
    We are developing a full-day conference this summer to 
train Federal managers and agency telecommuting coordinators on 
how to use telework successfully.
    We are distributing a compendium of telecommuting success 
stories and other publications.
    We are continuing to provide technical assistance to 
agencies and employees on telecommuting issues, and we are 
establishing an interagency working group that is addressing 
telework policy issues that need clarification. This group will 
serve as an important forum for dialog and problem-solving.
    These efforts reflect our belief that a major educational 
effort is needed to teach managers and employees alike about 
the benefits of telework and what makes for a successful 
telework arrangement. We are working with a number of 
organizations to develop these training modules.
    We are also in the process of developing guidance for 
agencies on evaluating the effectiveness of telework in a wide 
range of other work/life-wellness programs. Through these 
efforts, we will acquire a broader base of evidence concerning 
the effectiveness of these programs.
    At this time, we are also collecting baseline data from 
agencies on the status of agency policy development and 
implementation. As you know, under the fiscal year 2001 
Transportation Department Appropriations Act, all executive 
agencies are required to establish policies on telework and to 
increase each year the portion of the work force that is 
covered by such policies. We are surveying agencies to make 
sure that they have developed telework policies, and to see 
what those policies provide.
    We have also asked agencies to identify barriers that may 
limit the number of employees engaged in telework. Agencies are 
to report to us in April. We are looking forward to completing 
this process soon, and we are eager to analyze the data so that 
we can help agencies move forward.
    In your invitation, you asked what OPM is doing to ensure 
consistency across agencies regarding certain elements of their 
telework policies. Our guidance provides checklists and sample 
policies to make sure that agencies do not overlook any 
essential elements of a sound telework policy.
    For example, we have made it clear to agencies that their 
policies should address how to identify eligible employees, 
performance issues, time and attendance issues, provision of 
telecommunications equipment and services, and reporting 
requirements.
    Finally, you asked about the role and operation of 
telecenters in the Federal Government. Since this is a 
responsibility of the General Services Administration, I defer 
to GSA on your questions concerning telecenters.
    I can assure you, Mr. Chairman, that we at OPM are keenly 
aware that telework holds significant benefits for the 
Government and Federal employees, and that we are committed to 
doing all that we can to substantially increase the use of 
telework in the Federal Government. I think it is important to 
note, however, that while there is a lot we can and must do to 
promote telework by providing guidance, by educating managers, 
by monitoring agency implementation, by sharing best practices, 
the legislation that has been enacted gives to each agency the 
authority to develop and implement specific telecommuting 
policies.
    Again, I appreciate the opportunity to speak with you 
today. I would be happy to respond to any questions you may 
have.
    Thank you, sir.
    Mr. Tom Davis of Virginia. Thank you very much.
    [The prepared statement of Mr. Cohen follows:]
    [GRAPHIC] [TIFF OMITTED] T2126.015
    
    [GRAPHIC] [TIFF OMITTED] T2126.016
    
    [GRAPHIC] [TIFF OMITTED] T2126.017
    
    [GRAPHIC] [TIFF OMITTED] T2126.018
    
    [GRAPHIC] [TIFF OMITTED] T2126.019
    
    [GRAPHIC] [TIFF OMITTED] T2126.020
    
    Mr. Tom Davis of Virginia. Mr. Bibb.
    Mr. Bibb. Thank you, Mr. Chairman and members of the 
subcommittee and committee.
    I am David Bibb. I am the Acting Deputy Administrator of 
the U.S. General Services Administration. I also serve as head 
of the Real Property Policy Office in GSA's Office of 
Government-Wide Policy, and my testimony today will provide 
some information on that office's role.
    Switching to the operational side, I will provide 
information about the Washington, DC, telecenters; and finally 
I will narrow the focus to show how GSA has done, implementing 
programs for our own employees.
    GSA's Office of Government-Wide Policy's efforts to support 
the use of telework at the Federal level include an active 
outreach and communications program. We partner with 
professional organizations, such as the International Telework 
Association and Council, and we engage in numerous GSA and 
interagency initiatives that explore the benefits of telework.
    For example, right now GSA and the Office of Personnel 
Management are leading a major governmentwide policy review to 
resolve issues that could impede the growth of Federal 
telework.
    Switching from policy to operations, GSA-operated 
telecenters have provided an alternative that allows employees 
to perform office functions at a site close to their homes. The 
16 telecenters operated by GSA's Public Buildings Service in 
the Washington metro area offer 339 work stations that were 
used by 362 employees last year from 17 executive branch 
agencies.
    Of the 17 agencies that use the telecenters, 3 dominate and 
account for approximately 66 percent of Federal Government 
telecenter occupancy. Those are Defense, GSA, and 
Transportation.
    To date, as a group, the telecenters are not breaking even 
economically. However, I believe that we must carefully track 
the impact of Public Law 106-346 and its charge to dramatically 
increase telework in assessing the future viability of the 
centers.
    When we last performed an agency-wide count in GSA itself, 
2 years ago, we had 750 teleworkers, which is about 7 percent 
of our eligible work force and one of the higher rates in the 
Federal Government. One of the things that was mentioned 
earlier was alternative work schedules, where a Federal 
employee works 9 hours a day or 10 hours a day and then 
receives 1 day off during that week, or 1 per pay period.
    We have over 8,300 employees in GSA participating in 
alternative work schedules, 58 percent of our total work force. 
Of course, that means 8,300 persons are eliminating a commute 
once or twice a pay period, thanks to that program.
    There are many examples of offices or organizations within 
GSA that have implemented successfully telework initiatives. A 
good example is our Public Buildings Service in the New England 
region, where the entire staff was offered the opportunity for 
telework in response to transportation problems associated with 
the Big Dig in downtown Boston.
    Currently, 23 percent of eligible workers in the Boston 
area work from home on a regular basis.
    Based upon our own experience at GSA, our work with other 
agencies, our ongoing networking with the private sector, and 
our own research, we would recommend a focus on four areas in 
order to improve the prospects for teleworking where increased 
usage is desired.
    First, both management and staff need training on how to 
work in a telework environment, including a focus on results, 
rather than where the work gets done.
    Second, potential users must continue ongoing initiatives 
that identify problems and find solutions, such as the OPM-GSA 
policy review, the technology barrier study requested by 
Congress in its last session, and greater use of the Internet 
to communicate policy guidance and exchange information and 
best practices.
    Third, we need to recognize that greater numbers of 
telecommuters will require an increased investment in 
technology, connectivity, and training.
    The typical benefits--we have heard some of those already: 
greater employee satisfaction and productivity, less traffic 
congestion and pollution, greater flexibility to achieve work/
life balance, and a more technologically savvy work force. 
However, these benefits are difficult to measure in terms of 
traditional economic return. It is often difficult for an 
agency to allocate scarce funds toward startup costs.
    Also, while it is possible that greater numbers of 
telecommuters might eventually decrease global real estate 
needs, so far there has been little reduction in space as a 
result of telework in either the government or in the private 
sector.
    Finally, the most important mechanism to increase telework 
in any organization is cultural change. Top management must 
communicate that telework is encouraged, where practical, and 
it must convey the rationale for its use.
    Again, Mr. Chairman, I appreciate having the opportunity to 
appear here today, and I would be pleased to answer any 
questions when that time comes.
    Mr. Tom Davis of Virginia. Thank you very much.
    [The prepared statement of Mr. Bibb follows:]
    [GRAPHIC] [TIFF OMITTED] T2126.021
    
    [GRAPHIC] [TIFF OMITTED] T2126.022
    
    [GRAPHIC] [TIFF OMITTED] T2126.023
    
    [GRAPHIC] [TIFF OMITTED] T2126.024
    
    [GRAPHIC] [TIFF OMITTED] T2126.025
    
    [GRAPHIC] [TIFF OMITTED] T2126.026
    
    [GRAPHIC] [TIFF OMITTED] T2126.027
    
    [GRAPHIC] [TIFF OMITTED] T2126.028
    
    Mr. Tom Davis of Virginia. Mr. Lindsey.
    Mr. Lindsey. Thank you, Mr. Chairman. It is a pleasure to 
appear before you and the subcommittee today to address 
telecommuting. This is a very popular program at FRA. We have 
managed to make it work rather well. Telling you a little bit 
about FRA, I think will help to tell you why.
    We are a relatively small agency of 735 people. Our basic 
mission is railroad safety. In addition, we oversee Amtrak, 
deal with railroad financial assistance, and the economics of 
the industry.
    We have two different populations eligible for 
telecommuting, one at headquarters here in Washington, DC, and 
the other our safety field force, which is scattered throughout 
the country.
    The needs of the employees in those two forces are quite 
different, and the way telecommuting has been handled in them 
differs accordingly. It is wildly popular with our safety 
inspectors in the field. We have 360 of those; 65 percent of 
them telecommute at this point. What it means is that they are 
able to locate their homes within the district that they cover 
in their inspections, and instead of traveling to a regional 
office or another FRA office every day and then going from 
there to do inspections, they can go from home. They do their 
administrative work at home, as well, and communicate with 
their supervisors then via either computer or telephone, or 
both. It is extremely important.
    To be able to do that, though, we have been able to invest 
heavily in computer systems and telecommunications systems. 
Without them, this simply would not work.
    It is equally vital for our headquarters population. In 
headquarters, largely we have professionals like economists, 
engineers, lawyers, human resources personnel, folk of that 
sort. We have very few full-time telecommuters in headquarters, 
but quite a few people who telecommute occasionally.
    We have been flexible in establishing our policies, and I 
think that has been critical to make it work, to look at the 
nature of the work that each person does and to make eligible 
for telecommuting any work that is suitable for being done 
outside the office; so that, for example, if a lawyer is 
writing a large safety rule that requires spending time in 
isolation and focusing and concentrating carefully, that is a 
wonderful thing to do at home. It does not work quite as well 
on a day when the same person needs to meet with a wide variety 
of people. So at headquarters it has worked better to have 
people eligible to telecommute from time to time as the nature 
of their work has made it desirable to work on something in 
isolation and without interruption.
    Overall in the agency, 38 percent of our employees 
telecommute four or more times a month. It is very popular with 
employees.
    The popularity with supervisors is more mixed. Among the 
challenges that we had to face in putting together a successful 
telecommuting program was what happens with supervisors who 
have to do additional work to actually make this work.
    It takes extra planning to make sure that you have a clear 
understanding with the employee as to what is to be done. It 
takes extra work to assure that the people necessary are 
present in the office when key meetings have to happen. It is 
extra work on the supervisor also when last-minute matters 
appear on a day when the person who normally handles them is 
telecommuting, but something has to be done here and now.
    We took all of that into account by involving both 
supervisors and employees in putting together plans specific to 
each office within the agency so that everyone's concerns were 
on the table; and we tried flexibly to work them out in a way 
that met everyone's needs. Thus far, that seems to be working 
quite successfully.
    The program I think is meeting the goals that you have set 
for us. It definitely helps with issues like retention. It 
definitely helps to make us a more family friendly environment. 
We are able, for example, in headquarters, when someone has a 
sick child or an elderly parent in need of care to accommodate 
the family needs that way.
    It often helps people with civic participation when perhaps 
the 2 to 2\1/2\ hours that they might spend commuting in the 
Washington, DC, area can be devoted, instead of commuting, to 
actually doing something in their communities.
    For all of those reasons, I think it is a very valuable and 
very successful program. Thank you.
    Mr. Tom Davis of Virginia. Thank you very much.
    [The prepared statement of Mr. Lindsey follows:]
    [GRAPHIC] [TIFF OMITTED] T2126.029
    
    [GRAPHIC] [TIFF OMITTED] T2126.030
    
    [GRAPHIC] [TIFF OMITTED] T2126.031
    
    [GRAPHIC] [TIFF OMITTED] T2126.032
    
    [GRAPHIC] [TIFF OMITTED] T2126.033
    
    [GRAPHIC] [TIFF OMITTED] T2126.034
    
    [GRAPHIC] [TIFF OMITTED] T2126.035
    
    [GRAPHIC] [TIFF OMITTED] T2126.036
    
    Mr. Tom Davis of Virginia. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. I am Tony Young, 
director of Governmental Activities for NISH.
    NISH is the central nonprofit agency designated by the 
Committee for Purchase from People Who Are Blind or Severely 
Disabled to assist Community Rehabilitation Programs interested 
in offering employment opportunities to people with severe 
disabilities through Federal contracts under the Javits-Wagner-
O'Day program.
    I learned some valuable lessons about telework in my job at 
NISH. I found that due to the nature of my disability, 
traveling daily to the office is an inefficient use of my time 
and personal resources. Instead, using a personal computer, 
Internet connection, telephone, and fax, I telework from home, 
and concentrate my external efforts where they are most needed.
    Not everyone is as fortunate as I am to have a job and an 
employer with this flexibility. I am an advocate of 
telecommuting because I know it can work. It does for me.
    At NISH we are convinced that government agencies need to 
do more to reach the underutilized work force of people with 
disabilities to meet their staffing needs. I am not aware of a 
single government contract that employs great numbers of 
individuals with disabilities through telework. There are still 
too many barriers to remove for that to happen. These barriers 
are similar to those found in the private sector.
    I would like to share with you some of the telework lessons 
we have learned. Specifically, I would like to present the 
findings of one of our best community rehabilitation programs, 
ServiceSource, Inc., of Alexandria, VA. ServiceSource provides 
job training and employment to over 1,300 people with 
significant disabilities. They successfully operate 28 
contracts that provide Federal agencies with services such as 
mail center and food service operations to document conversion 
and administrative support.
    Sitting behind me is Janet Samuelson, president of 
ServiceSource. Janet is an outspoken advocate for individuals 
with disabilities and the use of telework as a viable 
employment option. She and her team began their efforts to 
promote telework in 1998, when they received funding from the 
Virginia Department of Rehabilitative Services to begin TIP, 
the Telecommuting Initiative Pilot. TIP was created to help 
determine the viability of telework as an employment option for 
those receiving vocational rehabilitation services.
    When Janet and her team began the telework pilot project, 
they planned and implemented a four-pronged approach that 
includes working closely with participants to understand their 
needs; determining the most viable employment models for 
telework, including direct hire and job-sharing; understanding 
the current labor market and business needs for telework; and 
emphasizing job placement and positive employment outcomes.
    To date, ServiceSource has contacted over 400 businesses in 
the Washington metropolitan area, out of which about 40 have 
participated in efforts to explore the potential for telework. 
From the start of the pilot, ServiceSource encountered 
significant barriers to telework. Commercial businesses cited 
the lack of accountability, the need for management control, 
other priorities, and customer reluctance as the primary 
reasons why telework won't succeed in their particular business 
setting.
    ServiceSource has learned that effectively removing those 
barriers requires technology, tools, and management techniques.
    Also, like any population of workers, teleworkers need to 
be well managed. Work should be divided into manageable tasks, 
reviewed frequently, and measured to determine performance. 
Excellent communication tools are absolutely necessary to keep 
everyone informed. Finally, teleworkers need to be qualified. 
Not everyone has the skills and temperament to be a teleworker.
    ServiceSource considers its telework project a success. 
Since December 1999, they have provided contract employment to 
teleworkers with significant physical and emotional 
disabilities. For instance, 10 workers are under contract to 
SoftZoo.com, an Internet startup firm in Reston, VA. These 
employees perform Web research and populate the SoftZoo.com 
data base with information on commercially available software 
packages.
    These findings highlight the need for Congress to take 
additional steps to remove barriers to telecommuting and to 
encourage Federal agencies and private employers to offer 
telecommuting to their employees and contractors as a work 
option. Specifically, NISH recommends these actions: One, 
Congress should swiftly enact President Bush's New Freedom 
initiative; two, Congress should encourage agencies that 
outsource call center and similar operations to contract with 
the JWOD program; three, the Telework Tax Incentive Act, H.R. 
1012, should be extended to offer a benefit to not-for-profit 
organizations equal to the $500 tax credit for businesses; 
four, the Small Business Telecommuting Act, H.R. 1035, should 
be extended to direct SBA to also raise telework awareness 
among not-for-profit agencies that offer employment services to 
people with disabilities.
    Telework is an exciting way to work and to do business. I 
believe that telework has tremendous potential for many 
workers, including those with significant disabilities.
    Telework must very soon offer a meaningful employment 
option to a much larger number of individuals with and without 
disabilities. Thank you for your interest and support on this 
issue. I will be happy to answer any questions you may have.
    Mr. Tom Davis of Virginia. Thank you very much.
    [The prepared statement of Mr. Young follows:]
    [GRAPHIC] [TIFF OMITTED] T2126.037
    
    [GRAPHIC] [TIFF OMITTED] T2126.038
    
    [GRAPHIC] [TIFF OMITTED] T2126.039
    
    [GRAPHIC] [TIFF OMITTED] T2126.040
    
    [GRAPHIC] [TIFF OMITTED] T2126.041
    
    [GRAPHIC] [TIFF OMITTED] T2126.042
    
    [GRAPHIC] [TIFF OMITTED] T2126.043
    
    [GRAPHIC] [TIFF OMITTED] T2126.044
    
    Mr. Tom Davis of Virginia. Dr. Allenby.
    Mr. Allenby. Thank you, Chairman Davis, Congressman Turner, 
and members of the subcommittee, for inviting testimony from 
AT&T on the topic of telework. We appreciate the opportunity to 
share the results of some of our experience with you.
    AT&T started a pilot program in Los Angeles in 1989, and 
then in Phoenix in 1990, with a handful of employees. The 
benefits to the company, the employee, and the community then 
drove telework forward, as opposed to any formal incentives or 
goals.
    Today 56 percent of our managers telework at least 1 day a 
month, 27 percent telework 1 day a week or more, and 11 percent 
telework 100 percent of the time from a virtual office.
    It was, after all, only with the advent of the 
manufacturing economy of the industrial revolution that workers 
began leaving their homes each day, assembling together for 
employment, then returning home. That is because a 
manufacturing economy focuses on place, the factory, because 
that is where the productivity has to occur.
    An information economy, on the other hand, focuses on 
knowledge, and that is produced independent of place, time, and 
disability challenge constraints.
    Our research indicates that the benefits of telework 
increase and challenges decrease as participation rises. There 
seems to be a critical mass. The first teleworker in a work 
group is an oddity and has a difficult time succeeding. When 
practically all the people in a work group are virtual workers, 
as in my current environment, health, and safety organization, 
we begin to see rapid business improvement and higher 
performance.
    How successful individual managers are in managing remote 
workers depends very much on how well they managed workers in a 
traditional office environment. Those who were successful with 
managing by objectives and evaluating output will have less 
problem. Those, however, who manage by TAD, time at desk, and 
by how busy they perceive an employee is, are going to have a 
difficult time.
    One factor which we find shrinks the eligibility for 
telework is the digital divide between the home and the office. 
Our employee research has shown that lack of Broadband into the 
home is a major barrier to increased participation.
    Going forward, we think that labor and employment issues, 
important to both the employee and employer, need to be 
addressed, including ADA, EEO, insurance and liability 
requirements, OSHA compliance, compensation laws, wage and hour 
lawsuits, and tax issues.
    Telework is often seen as an employee benefit, and indeed 
it is. There are major business benefits as well, however. At 
AT&T we save about $25 million a year in real estate through 
our virtual office programs. Our telecommuters report being 
more productive. The teleworker, after all, has available the 
previously nonproductive commute time. We find that our office 
workers report 6.2 productive hours in an 8-hour day. Our 
telecommuters report 7.5 hours in an 8-hour day.
    Our data show that not only are telecommuters more 
productive as individuals, they are more productive on a per-
hour basis, as well. Seventy-seven percent of all AT&T 
telecommuters reported higher productivity at home, a figure 
that was also reported by their managers, equating to about 
$100 million a year.
    Recruitment and retention are other important benefits, and 
that has been mentioned. Sixty-seven percent of our AT&T 
managers report that not giving up an AT&T telework environment 
was a factor in their decision to remain with the company when 
they had other opportunities. In addition, 77 percent of our 
employees who work from home reported greater satisfaction with 
their current career opportunities.
    In total, looking at the environmental benefits, we avoided 
110 million miles of unnecessary driving, and eliminated the 
energy consumption and pollution that would have been 
associated with that.
    We find that we have had experience in many different kinds 
of telework. Frankly, how it is set up does not matter because, 
of course, the purpose is really to separate place and time 
from the product, which is knowledge.
    Members of the subcommittee, we feel that Congress can play 
a key role in accelerating the deployment of telework by 
considering certain legislative initiatives. Representative 
Frank Wolf recently introduced H.R. 1012, as I think was noted 
by Congresswoman Morella, giving tax credits for expenditures 
associated with teleworking. Additional consideration should be 
given to enhancing the proposed legislation to double the tax 
credit of each employee covered under the ADA and for each 
employee of a small business. We also think that favorable 
depreciation rates for Broadband facilities might be an 
important enabling function.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to share the AT&T story on telecommuting and 
offer our company's resources to work with the committee. Thank 
you.
    Mr. Tom Davis of Virginia. Thank you very much.
    [The prepared statement of Mr. Allenby follows:]
    [GRAPHIC] [TIFF OMITTED] T2126.045
    
    [GRAPHIC] [TIFF OMITTED] T2126.046
    
    [GRAPHIC] [TIFF OMITTED] T2126.047
    
    [GRAPHIC] [TIFF OMITTED] T2126.048
    
    [GRAPHIC] [TIFF OMITTED] T2126.049
    
    [GRAPHIC] [TIFF OMITTED] T2126.050
    
    [GRAPHIC] [TIFF OMITTED] T2126.051
    
    [GRAPHIC] [TIFF OMITTED] T2126.052
    
    [GRAPHIC] [TIFF OMITTED] T2126.053
    
    [GRAPHIC] [TIFF OMITTED] T2126.054
    
    [GRAPHIC] [TIFF OMITTED] T2126.055
    
    [GRAPHIC] [TIFF OMITTED] T2126.056
    
    [GRAPHIC] [TIFF OMITTED] T2126.057
    
    [GRAPHIC] [TIFF OMITTED] T2126.058
    
    [GRAPHIC] [TIFF OMITTED] T2126.059
    
    [GRAPHIC] [TIFF OMITTED] T2126.060
    
    [GRAPHIC] [TIFF OMITTED] T2126.061
    
    Mr. Tom Davis of Virginia. Mrs. Alcott.
    Ms. Alcott. Thank you, Mr. Chairman, members of the 
subcommittee, and guests. My name is Jennifer Alcott. I am here 
today to represent the Washington Metropolitan Telework 
Centers, which is a coalition of the local managing partners of 
the 15 Federal telework centers around Washington, DC.
    I have been intimately involved with this program for 
almost 7 years now, and I manage three facilities that are 
located along Interstate 95 between the Capitol Beltway and 
Fredericksburg, VA.
    The telework centers were established at the direction of 
Congress by the U.S. General Services Administration, beginning 
in 1993, in an effort to promote telework within the Federal 
Government. The centers provide workstation space, computers, 
phones, Internet access, and technical support to employees 
from Federal, State, and local governments and private sector 
companies that will allow their employees to make use of modern 
technology to perform their jobs at least part of the time in a 
facility closer to their home.
    At present, the 15 centers are at about 54 percent capacity 
in terms of the number of workstation seats reserved full time. 
The utilization rates for any given center range from about 25 
percent to about 80 percent, and some of the centers have been 
at 100 percent capacity at certain times.
    The clientele base for the telework centers is currently 
composed of about 77 percent Federal employees and 23 percent 
non-Federal users, with non-Federal use being defined as use by 
a State or local government, a private sector company, a 
nonprofit organization, or an individual citizen.
    Only a very small handful of Federal contractor employees 
make use of the telework centers, and an interesting number to 
tell you is that over 600 constituents made use of the telework 
centers in fiscal year 2000, and that includes Federal and non-
Federal use.
    Most of the telecommuters that use the centers use the 
facilities an average of two times per week and then they 
commute into the Washington, DC area the rest of the days of 
the week. At least 11 of the centers have performed formal 
surveys to measure customer satisfaction among their clientele, 
and at a recent survey that we conducted in the three centers 
that I manage about 95 percent of our customers reported that 
they are either extremely satisfied or very satisfied with the 
facilities.
    Surveys of other northern Virginia centers report that 95 
percent of their users are either satisfied or very satisfied 
and surveys conducted in southern Maryland show similar 
results. While the vast majority of the tens of thousands of 
telecommuters in the Washington, DC region work from home when 
they telecommute, my experience over the last 7 years with 
hundreds of telecommuters and their managers and employers has 
shown a variety of reasons of why a small but very important 
percentage of these telecommuters and their managers prefer 
center-based telework.
    For example, many managers are more comfortable with the 
professional environment that a telework center provides, and 
they prefer to take advantage of the technical support that is 
available onsite rather than relying solely upon the technical 
support over the phone that their organization can provide.
    In addition, a number of telecommuters simply do not have 
the space or the resources within their home to set up a home 
office. In addition, many employees prefer the distinct 
delineation between their work lives and their home lives that 
center-based telecommuting provides.
    Center-based telework can also help avoid the feelings of 
isolation that some home-based telecommuters have reported. In 
addition, the centers currently serve as a resource for home-
based telecommuters that don't need the amenities of the 
centers every day but would like to make use of them on 
occasion, and we feel very strongly that the telework centers 
fill an important market niche and are a valuable contribution 
in the overall promotion of the benefits of telework in our 
communities.
    In order for the telework center program to continue 
successfully, it needs the full and long-term support of the 
General Services Administration, which is the Federal agency 
that currently oversees the program. Over the past 7 years the 
program has been shifted amongst several different divisions of 
GSA and even today the program is not funded and overseen by 
one central office at GSA. These functions are divided 
geographically between two regions.
    In addition, in the past there has been no long-term 
commitment from GSA toward the program in terms of either 
management or funding, and the local managing partners never 
know from year to year whether the facilities will remain open 
in the next fiscal year or whether they will be forced to shut 
down. In spite of these obstacles, the local managing partners 
have remained committed to working with the Federal Government 
on this program because we firmly believe that telework works 
for the benefit of the citizens, the employers, the community 
and the Nation as a whole.
    In an ideal world, the program involving the telework 
centers would be funded and facilitated by a division of either 
GSA or another Federal agency whose mission and focus is the 
implementation of innovative policies that benefit the 
employer, the employee and the community as a whole rather than 
viewing these centers as simple real estate. Effective, 
efficient and supportive management is the key factor in the 
success of any program, and when we combine this with the 
accountability that is now being required of Federal agencies 
by Public Law 106-349, we feel that the total work center 
program will be even more successful in the future than it has 
been to date, and I would be happy to answer any questions that 
you have.
    [The prepared statement of Ms. Alcott follows:]
    [GRAPHIC] [TIFF OMITTED] T2126.062
    
    [GRAPHIC] [TIFF OMITTED] T2126.063
    
    Mr. Tom Davis of Virginia. Thank you very much. Let me 
start the questioning down on my left with Ms. Capito.
    Mrs. Capito. Thank you, Mr. Chairman. I have a question. I 
believe it is probably for Mr. Bibb. In my opening statement I 
stated in our Jefferson County telecommuting center we have 79 
Federal employees that are on a waiting list who want to have 
this made available to them, and I was wondering what the 
holdup is or what you perceive to be the problem and why we are 
not able to fill our telecenters.
    Mr. Bibb. Well, I think the overriding problem with filling 
the telecenters has simply been the pool of potential users who 
have been given the OK by their agencies, as you're intimating. 
There are reasons that agencies will cite in not giving 
authority to telework either at home or in a telecenter. Those 
include double costs, to provide a work space in the office and 
to repeat costs in a telecenter or to set up a home telecenter 
in some cases. There--also we've heard testimony that touches 
on this. There is some inherent management reluctance to have 
employees out of sight; how can you supervise? My experience 
has been if you can supervise in the office with proper 
performance measures you can do that in a remote location, but 
I think those two things, I think the cost and the reluctance 
on the part of some managers are the biggest problems we have, 
not just with the telecenters but with teleworking in general.
    Mrs. Capito. Thank you. That's my only question.
    Mr. Tom Davis of Virginia. Will the gentlelady yield for a 
second?
    Mrs. Capito. Yes.
    Mr. Tom Davis of Virginia. You heard the AT&T story, about 
basically you have to change the culture if you want to change 
that. I guess our question is these centers are out there, 
they're not operating at capacity, what are we doing to change 
the culture in these agencies?
    Mr. Bibb. Well, there have been, and Mr. Cohen may want to 
jump in from the standpoint of OPM's efforts governmentwide, 
but there's been a lot of education, a lot of publicity. I 
venture to say there are very few Federal employees who don't 
know of the existence of telecenters.
    Mr. Tom Davis of Virginia. Mr. Bibb, I think the problem 
is, I mean the employees I talk to are dying to be able to use 
this, but the agencies are just not giving them the 
encouragement and the go-ahead because they're just operating 
under an old mindset, an old model, and that's what's got to 
change.
    Mr. Bibb. I would agree. There is a lot of the old mindset. 
The Federal Government's effort by and large over the last 6 or 
7 years, particularly when home teleworking became feasible 
because of connectivity and the machines that could be placed 
in the home, was primarily: This is a great idea and it is 
going to catch on over time and there will be a natural growth 
in use. The numbers have shown that hasn't happened. The 
numbers are pretty low, so now we do have a different ball 
game. We have a piece of legislation that would require 
agencies to hit certain targets, and I believe that's going to 
change the playing field.
    Mr. Cohen may want to add with your permission, Mr. 
Chairman.
    Mr. Tom Davis of Virginia. Sure.
    Mr. Cohen. Yes, sir. I totally agree that there needs to be 
an attitudinal, and mindset change within the Federal service 
and among supervisors and managers. This is something that is 
in fact going to take time. It is something that we're all 
working toward. We need to do a better job of demonstrating to 
our supervisors and our managers that telework can help. It can 
help in terms of mission accomplishment, it can help in terms 
of productivity. As a matter of fact, we'll be issuing a 
publication very shortly that will demonstrate some best 
practices, featuring agencies that have really done a good job 
of making telework work. We are holding seminars and 
conferences where we bring together both the supervisor and the 
employee so that individual stories can be told so that 
supervisors and managers throughout the Government will 
understand that these programs and this particular initiative 
is in fact helpful.
    Mr. Tom Davis of Virginia. Let me take it one step further. 
There's a new report prepared by the National Academy of Public 
Administration at the request of the Federal Chief Information 
Counsel, and it portrays the government as lagging behind the 
private sector in treatment of high-tech workers. I mean this 
is not just about accomplishing the mission in productivity. 
This is about allowing employees the flexibility where they 
don't have to come in in traffic and they can make their 
child's play or they can make a doctor's appointment.
    It is a huge retention issue, in my judgment. It has been a 
congressional priority. Mr. Wolf has put these items in the 
appropriations every year. It seems to me not fault, but it is 
not an executive branch priority. As a result, we have these 
centers out there, we've heard the testimony, that are vacant 
or just not being utilized to their capacity when they ought to 
be teeming with their people, and there are employees who want 
to use it but they are either not getting the encouragement or 
the permission or whatever and there ought to be a natural--
this is seems like such a natural.
    Mr. Cohen. We agree and we are committed to making this 
work if at all possible.
    Mr. Tom Davis of Virginia. Thank you for yielding. Mr. 
Moran.
    Mr. Moran. Thank you, Mr. Chairman. When we have touched on 
the problems, the feedback that we get here is consistent with 
what has been raised. When I ask managers, the first thing they 
cite is that there they're afraid that you pay double rent for 
somebody to work in the telecommuting center and downtown, that 
at some point--if they try to save money by reducing that 
overhead cost for space, that at some point that telecommuting 
center is going to close down and then they don't have enough 
space for their employers. So there's some disincentive from 
management to take that risk of relying upon the perpetuation 
of a telecommuting center.
    How many days do you have to telecommute to be considered a 
telecommuter, because most all of them spend at least 1 and 
sometimes 2 or 3 days a week in DC and the other 2 at a 
telecommuting center. How do you define a telecommuter?
    Mr. Cohen. We would define the telecommuter as one who is 
available for telecommuting at least 1 day a week or more. At 
least 1 day a week, yes, sir.
    Mr. Moran. So you have to have a certain critical mass to 
share those facilities and if that 1 day a week is a Monday or 
Friday, and I wouldn't be surprised if it is not generally a 
Monday or Friday that we are talking about, then we are going 
to have--it may be full 1 day a week, they may choose the same 
day, and then the rest of the time it may very well be empty. 
Is that a problem?
    Let me ask Mr. Bibb.
    Mr. Bibb. I think Mr. Lindsey made some reference to the 
problem of a manager managing a telework force. It does take 
some planning so you don't have everybody out on Monday or 
Friday. So far the double cost is a problem for management. We 
have found in my own experience, in my own office, where over 
half my people telework, that--and we are not atypical of 
teleworking organizations--that when people are teleworking 
once a pay period, twice a pay period, you really don't pick up 
any space savings back in the home office. In my own office I 
have told my own people let's talk about teleworking 3 days a 
week and in return we are going to expect you to give up or 
share space, and to my surprise I'm getting considerable 
interest in that. I think, you know, if we reach the point 
where we do begin to get some space sharing then it becomes 
more economically viable, although I will say I think if people 
think hard about these retention issues and the competitiveness 
of the Federal Government to win people to come to work for the 
Federal Government and then keep them, the dollars for space 
may not be as significant as we think they are.
    Mr. Moran. You have to report, is it April 2nd or April 
23rd? It is next month anyways. You have to have a report and 
it is not that you have a prerogative, it is mandatory that you 
have to have a plan for incorporating 25 percent of the 
agencies' work force into a telecommuting plan. Do you think 
you're going to meet that required objective, Mr. Cohen?
    Mr. Cohen. Mr. Moran, if you're referring to the report 
itself, of course we will. We are compiling all of this data 
now from all of the Federal agencies. The agencies are due to 
report to us in April on the establishment of their particular 
policies, how many people they have teleworking, what barriers 
there may be to teleworking, and how in fact we can deal with 
them. We are committed to looking over those policies and 
dealing with them and if there are changes that are necessary 
to dealing with the agencies in terms of making those changes. 
We will of course be reporting to the Congress on the results.
    Mr. Moran. Well, I think Mr. Wolf is the one that put that 
language into the Transportation bill. I think he wants to go 
beyond the report. He wants your plan for how you're going to 
make it work. But we'll let him hold your feet to the fire. I 
don't know, I don't know that we can, we can really ask the 
kinds of questions that need to be asked until we get that 
report and see the specific problems.
    Clearly, as Chairman Davis has said, it is a cultural, an 
attitudinal problem, and it is in the private sector. We are 
hearing AT&T does a good job, but I don't know that they are 
typical and I know that most managers have a lot of reluctance 
to do this, but I think that the situation with regard to 
physical disabilities is particularly compelling. That makes so 
much sense and it is clearly a cost savings as well.
    Do you think that we have enough telecommuting centers, 
would you suggest that we look for more space, or do you think 
that what we have now is sufficient until we change the 
corporate, the cultural attitude?
    Mr. Bibb. Well, I think what we are going to recommend to 
our incoming Administrator is that we take a look at what the 
impact of this new law is on usage. I think that would be a 
prudent thing before we think about do we have enough or not. I 
think that's going to be the proof in the pudding.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Wolf. Would the gentleman yield? But it really doesn't 
impact on usage. This is the law and we didn't put civil 
penalties in or criminal penalties, but it is the law and my 
recommendation is that at the end of the year the agencies that 
are not complying ought to be held accountable. The agencies 
that come before the subcommittee that I'm the chairman of, we 
are going to look at it with regard to their budget and the 
same with regard to GSA and the Treasury bill. So it is really 
the law. Everything that most of you have said have all been, 
the charge will be, the intent will be. It is actually the law. 
It is the law of the land. A lot of things are, and we are 
obligated and duty bound to do them even if we don't like to do 
them, and so it is not, you know, we are going to see what kind 
of impact.
    And, GSA, with all due respect, I don't believe that you 
have done that great a job. I have had citizens from my 
congressional district who have come to my town meetings who 
say I want to use the telework center and GSA won't allow me to 
use them. Y'all really have not gotten behind it. Maybe in your 
office you're doing it but overall. Every Federal employee 
should be surveyed. Do you have a Web page on this, does GSA 
have a Web page whereby any manager who wants to allow their 
people to telework can go on the Web page? Does every agency 
have a Web page? Does OPM have a Web page, so if I'm a manager 
I can go to it or if I'm an employee? But it is not just to see 
what the impact is. It is the law and it is 25 percent of those 
who are eligible, 50 percent the following year, 75 percent the 
following year and 100 percent the other year.
    We will never be able to deal with traffic congestion in 
this region until we get with that program and do it. It also--
you talk about space. This is not a space issue. If we are only 
to look at it from a green eyeshade space issue, we will never 
be successful. As the AT&T guy said, the first teleworker in 
the group is an oddity and has a difficult time succeeding. 
When half the people in that work group are working from home, 
the communication patterns change and the teleworker is no 
longer an unusual event.
    The reason they're empty is because the agencies have not 
really participated and the definition of eligibility has been 
very, very narrow. Now, in all fairness, the telework centers 
should be packed because there won't be enough people that can 
fill this thing, but that's almost like black and white 
television. If you went out and bought a television today, you 
wouldn't buy a black and white. You may even buy a digital. 
This is digital. We've got to move beyond it, but I think they 
ought to stay open for a number of years. You ought to be 
encouraging people to use them.
    When the mixing bowl takes place, when the Woodrow Wilson 
Bridge construction takes place, you will literally have a 
difficult time getting from south of there up into the area. 
But it is not an impact. It is the law, and otherwise you all 
will be in violation of the law. I don't know what--and I am 
going to ask Attorney General Ashcroft, what is the impact of 
when agencies are violating the law. Maybe we just ignore the 
law or do we do something, and I think OPM has to make it 
clear. This is not a recommendation. It is the law of the land 
and, quite frankly, we are going to ask in the report to find 
out are the agencies really defining eligibility in a fair way 
or do they just say, OK, we've got two people eligible and 
one's teleworking, so we are 50 percent, so we are beyond, or 
are they really putting their heart and soul into it.
    Nineteen million people in America telework. AT&T does it. 
Nortel does it. Mr. Davis is right, you talk about retention, 
you talk about recruitment. This is retention, recruitment, 
productivity. The productivity of people who telework is as 
high and sometimes--we don't like to say it--higher than 
somebody who is not. Give a mom the opportunity, and telework 
is not only just 1 day a week. It may be a half a day. You may 
come in in the morning and leave at 2 o'clock and finish the 
day at home. You're out of the traffic and you're home when 
your kids come home from school. But it is the law, and it is 
just not 1 day a week. It is many other difficult--and for 
people who have a difficult time, handicaps and others, 
recuperating from a heart attack, going through difficult 
times.
    So I think you're really going to have to do it. I have 
written all the Cabinet officials. Only one has answered. Only 
one has answered and so--but it is the law.
    Mr. Tom Davis of Virginia. If the gentleman would further 
yield just for a minute.
    Mr. Moran. I certainly would.
    Mr. Tom Davis of Virginia. I think Mr. Wolf is right. It 
really comes down to priorities. You get hit with a lot of 
different requirements from government in terms of things that 
agencies have to do in sorting it out, and you know in the 
scheme of things, this has not been given the political push 
probably it needs to from this body, where they have recognized 
that there are rewards and punishments for not moving it along, 
but I think it is the right public policy. It is the public 
policy of the future. We have seen it adopted in the private 
sector on a consistent basis.
    We are facing a time at the Federal Government level now 
when some of our top technology employees are at retirement 
age. What are we going to do to replace them? You can't offer 
them stock options, can't give them bonuses under civil service 
rules. Telecommuting is a great incentive for people who are 
concerned about lifestyle, but I can tell you, an hour commute 
from Woodbridge isn't, and that is the kind of issues that the 
government needs to start assessing and make a higher priority, 
and I recognize that you have a lot of rules and regulations 
you have to comply with, and this is just another one. Well, it 
is not just another one, as Mr. Wolf said, and I think that's 
what we are trying to emphasize here, and let me yield now to 
the gentlelady.
    Mr. Moran. Mr. Chairman, I have to go to a Budget Committee 
meeting, but again I want to thank you very, very much for 
having this hearing.
    Mr. Tom Davis of Virginia. Mrs. Davis.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Chairman.
    Ms. Alcott, I think you said in your testimony that some of 
the telecommuting centers are like 25 percent and I think the 
highest you said was 54 percent.
    Ms. Alcott. The highest is 85 percent. The average is 54 
percent.
    Mrs. Jo Ann Davis of Virginia. Given the fact that two of 
those are in my district, some of the concern is the ADA, the 
OSHA, Workmen's Compensation and that sort of thing. How is 
that handled in the telecenter?
    Ms. Alcott. The telework centers are really treated simply 
as an extension of their normal workplace. The telecommuting 
centers are all ADA compliant. We are compliant with OSHA 
regulations because they are currently under a GSA lease. So we 
are bound by all of the same laws and regulations that the 
Federal workplace is bound by and we must comply with them.
    Mrs. Jo Ann Davis of Virginia. So it is an extension of the 
actual workplace then. I don't know who said it was a problem, 
but why would it be a concern then? Why would it not just 
filter on down from the workplace to the telecommuting center, 
telework center? Why would that be a problem to the employer? I 
don't know who said it, but whoever wants to answer.
    Mr. Bibb. What exactly would be the problem for the 
employer?
    Mrs. Jo Ann Davis of Virginia. Someone said the ADA was a 
problem.
    Mr. Allenby. That was--in looking at it as an opportunity. 
I think that, among other things, telework makes age and 
disability transparent because what you're interested in when 
you get to telework is knowledge and that knowledge is not just 
captured in the people that you have working immediately in 
your facility.
    Mrs. Jo Ann Davis of Virginia. It is not a negative; it is 
a positive then?
    Mr. Allenby. Absolutely it is a positive then, and I think 
also there was a mention of people who retire from the Federal 
Government. I wonder how many of those people would be willing 
to telework on a part-time basis to maintain the knowledge 
structure of the Federal Government, to maintain the 
transition.
    Mrs. Jo Ann Davis of Virginia. The other concern I think I 
heard about teleworking was--I'm not sure where I heard it--
securing the information on the computers, I guess. How is that 
handled in the telework centers?
    Ms. Alcott. In the telework centers it is incumbent upon 
the user or the employee to make sure that they are following 
the necessary safeguards. The centers all have local area 
networks, and as part of the local area networks the users are 
given a subdirectory on the server that only they are privy to 
along with the network administrator at the site. So rather 
than storing information on the hard drive of the PC, it is 
incumbent upon the user to store the information in their 
subdirectory on the server.
    On a couple of different other levels all of the networks 
do have user names and passwords that are required when you log 
in, and the agencies themselves have security in place in 
either their Web access or their dial-up access. So I would say 
that most of the agencies that we serve have multiple layers of 
security and in fact that is sort of a minor stumbling block. 
For some people they have about seven or eight different user 
names or passwords that they have to remember, so there's lots 
and lots of security in place.
    Mrs. Jo Ann Davis of Virginia. Thank you. I had one other 
question if I can figure out where I wrote it. I will have to 
yield, Mr. Chairman, because I don't know where I wrote it 
down.
    Mr. Tom Davis of Virginia. Thank you very much. Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. I've been fascinated by 
the possibility here of different types of telecommuting and 
yours is very clear, Ms. Alcott, because you have got several 
group presentations there and people can perhaps learn 
something from the other. I'm interested in those that do it in 
the home because the GSA and the OPM and the Railroad 
administration, do you permit them then to take particular 
computers, fax, etc., and how do you check the work? Do you 
just, does she or he use a fax to say here's what we are 
working on and if the supervisor says, gee, we ought to add 
something to that can you fax it back? Is that a problem at all 
for the agencies?
    Mr. Cohen. A fax would be one possibility. Of course 
another is just the computer itself, electronically sending the 
files and the messages back and forth and that works very, very 
well. There would be a variety of ways that we would support 
our own employees. We would provide the equipment, the 
computer, the fax, the phone line, if that in fact is necessary 
and desirable. Sometimes the individual has his or her own 
computer. We would provide whatever the software might be that 
would be appropriate. So there are a variety of ways of 
providing the equipment and also of course in making sure that 
the work is done and it is done the way it ought to be done.
    Mr. Horn. What about the supervision? Do your supervisors 
get a little bit nervous or what?
    Mr. Cohen. Well, that's really at the heart of some of the 
problems we are discussing today and we've been discussing for 
quite some time. This is a different way of managing work. And 
I suspect we know from all of the research that has been done, 
a very heavy percentage of our supervisors and managers are 
simply not comfortable with this different way of doing work. 
They haven't experienced it in the past. They don't know that 
in fact it can work well. It is an educational effort, as we've 
described before, and it is one that is absolutely essential 
but that's really at the heart of it. When an individual enters 
into an agreement with the supervisor, what we want to see is a 
clearly spelled out expectation on the part of the supervisor 
and on the part of the employee so they both know what it is 
that's expected of them, and the supervisor of course is then 
able to ensure that the work that's expected is done. But that 
really is at the heart. It is trying to make the supervisor and 
the manager comfortable with this different way of managing the 
work force.
    Mr. Horn. It seems to me we would get a lot of space that 
could be used by various agencies. With all due respect to GSA, 
I have great respect for GSA, but I must say some of the 
amortization of some of the buildings are really out of sight 
and an agency could save a lot of its lease rent, whatever it 
is called, money and if people did use it in their own homes 
and got the job done and they wouldn't--they at least have a 
parking place in their home and when it's downtown Washington, 
or Long Beach, CA, it is tough, really tough to find parking.
    And the gentleman from Virginia is certainly right on this. 
This is a law and there ought to be a lot more work going ahead 
on this. Now can OPM encourage that with the people? Do you 
have training courses and everything else on being good 
supervisors, good administrators, all the rest of it?
    Mr. Cohen. Exactly. We have developed telecommuting kits. 
We've developed guidelines, or guidance if you will. We are in 
the process of developing and working with the contractors to 
develop distance learning modules. We have seminars, 
conferences and the like. It is a major effort. It is also an 
effort that frankly we can't do by ourselves. It is one that 
the agencies will have to be involved with. We'll provide 
materials, we will provide guidance, but we have to expect that 
the agencies will pick up on these materials and do a lot of 
the training of their own supervisors and managers.
    We are undergoing within our own agency a significant 
initiative. We've briefed our executive staff. We are holding a 
session with all of our supervisors and managers. We are doing 
the same thing with all of our employees. We've changed our own 
telecommuting policies, and we are making it quite clear within 
our own agency that this is really what's expected and that we 
are expecting to see significant increases in the numbers of 
individuals who are telecommuting. I think, frankly, that if we 
got the type of support that we are talking about in all 
agencies we'd see some of the dramatic changes that this 
committee wants to see.
    Mr. Horn. Any comment on this, Mr. Bibb, in terms of the 
supervision and all?
    Mr. Bibb. I think a number of things Mr. Cohen has said are 
correct. GSA does allow people to work at home in addition to 
telecenters, and in fact the vast majority of our people do 
work at home, and in the private sector that's been the same 
experience. Yes, there's a reluctance on the part of 
supervisors. We have found, though, that when you measure by 
results rather than whether standing over someone's desk and 
seeing whether they're actually working on something, it is the 
right way to manage anyhow, whether you're in the office or 
someone's not even anywhere close. So you hold the employee 
accountable for the results, and I do not see a problem with 
it.
    I do think it is a culture change and people are used to 
being onsite and checking to see who's doing what, but I think 
ultimately what you produce and the job you get done is what 
counts.
    Mr. Horn. Mr. Lindsey, do you want to add to that?
    Mr. Lindsey. Yes, Mr. Horn, I'd like to add a couple of 
things that I think are important. One is dealing with the 
motivation of the supervisors. We have a pattern of having 
performance agreements inside the agency that carry our 
priorities all the way down and every supervisor is handling 
telecommuting as one of the priorities in his performance 
documents. So there's a motivator there that makes clear from 
the top of the agency down that this is expected to be handled 
well.
    A second one that's important that's kind of facilitative, 
to make this work, you were talking about the technical systems 
a minute ago, computer systems and communications. This is very 
difficult. It's been very hard for many years to keep computer 
systems current and to develop them to the state that we need 
them. For us it is critical to have a wide area network that is 
very much up to date and very effective so that among employees 
who are out in the field someplace and who are telecommuting or 
otherwise gone, we can share a long and complex document 
effectively, and have the same software at each end, to make it 
work smoothly: For example, a supervisor and an employee can 
exchange a large document, have the supervisor review it, show 
the commentary on the document and fire it back to the employee 
at the distant locale. That can work well, but we really have 
to make the investment to make it happen, and it is critical 
that we do so.
    Mr. Horn. Thank you. Thank you, Mr. Chairman, very 
interesting.
    Mr. Tom Davis of Virginia. Thank you very much. Mrs. 
Morella.
    Mrs. Morella. Thank you, Mr. Chairman. I very much value 
having heard the panel and the whole concept of this hearing. I 
think it is very important that we find out what the 
difficulties are that you're facing and how you have to move 
ahead with what Mr. Wolf stated. There is no choice and I think 
it is going to help all of us.
    I'm curious, we talk a lot about the telework centers. How 
do you decide, Mr. Bibb, how do you decide where they will be 
located?
    Mr. Bibb. We have tried to place them geographically around 
the metropolitan area where there are concentrations of Federal 
employees. In addition, the Congress has helped us with some of 
those decisions by giving us some direction on where some of 
those centers should go. But it is primarily where the 
concentration of Federal employees are in outlying areas.
    Mrs. Morella. Maybe I could give you some direction.
    Mr. Bibb. Sometimes in law.
    Mrs. Morella. Well, I think the 8th district in Maryland 
has an awful lot of Federal employees. I think we have prime 
locations for a telework center. So can we have that be part of 
your personal records?
    Mr. Bibb. I have made a note.
    Mrs. Morella. Thank you. With regard to--and of course I 
hear about the fact that they're not utilized adequately and 
you've got someone--people who are trying to get into them, and 
yet 54 percent usage or even less than that in some instances. 
So a lot has to be done with those, too. But quite seriously, I 
was rather surprised to note that District 8 didn't have a 
telecenter, a telework center yet.
    I want to ask you about whether or not you have pursued the 
top, the laptop docking station. You know, the laptop is there 
and employees can check it out if they are going to have their 
day working at the telework center or at home.
    Mr. Bibb. It is a great solution. It keeps you from having 
to have a complete computer.
    Mrs. Morella. You haven't done anything with it?
    Mr. Bibb. No, we have. We are using that. We see more and 
more agencies using those as laptops get better, as docking 
stations get better, as the communications links improve. When 
you work at home, unless you have broadband it is very hard to 
be like in the office. But docking stations and laptops are a 
great idea. One machine: you plug it in at the office or you 
plug it in at home.
    Mrs. Morella. So where are they used; do you know?
    Mr. Bibb. I don't have a governmentwide count. I use them 
in my own organization in GSA. We have them within my own 
office. We intend to move as soon as we can to an entirely 
laptop docking station environment, as soon as we've amortized 
the cost of some of the equipment. We have and we'll move right 
on it.
    Mrs. Morella. That might be one of the suggestions also 
that's offered to agencies, too, that they might look into. 
That brings up the issue of all the security, and I know 
there's been some reference to that. Does that present 
tremendous challenge to make sure there is adequate security?
    Mr. Bibb. I would just say, and Mr. Cohen may want to add 
or any other panelist, it enters into the equation for a high 
security job. For some jobs it is not a big factor at all. 
Others where you're dealing with government contracts, etc., 
and information might get out, you have to be careful with it. 
But those things can be overcome with encryption, etc., and I 
think we are getting better and better at it.
    Mrs. Morella. And I would hope that there's somebody in 
every agency that would be in charge of that.
    Mr. Bibb. I would say each agency's CIO, Chief Information 
Officer, would be, yes.
    Mr. Cohen. And I would agree. There are circumstances when, 
for security considerations, telecommuting does have a 
different challenge, but it would be the CIO's office that 
would be the one that would deal with those issues.
    Mrs. Morella. I wonder how the private sector does that, 
too. I might ask AT&T what they do with regard to preserving 
the adequate security.
    Mr. Allenby. It is a very good question. There's really two 
elements to security, I think, that are important to consider. 
The first is how to maintain security on the Intranet and 
associated systems, and the second is how to maintain control 
over the intellectual property of the agency or of the company. 
Those are related issues and they point, I think, to a more 
fundamental question, which is how to structure the 
infrastructure of the company for the 21st century as opposed 
to the 19th. It is not just a security issue as much as it is 
how do we take all of our e-enabled systems, our Intranet 
systems, our electronic systems, and move them to an 
environment where location and time are no longer critical.
    I had an excellent worker a couple of years ago who liked 
to spend his time over in the Netherlands and he would file 
reports from cafes in the Netherlands. How do you maintain 
control of security when that's the kind of pattern that you're 
looking at? I think probably that the answers given up until 
now I would agree with. I think it is an issue that clearly 
needs attention, but I don't think that in any sense of the 
word it is a show stopper. We just need to continue to maintain 
vigilance, particularly over the structure of the internal 
networks.
    Mrs. Morella. Do you all have problems getting people who 
are trained, adequately trained to be able to be involved with 
the security? Is that a problem that any of you know about?
    Mr. Allenby. That's a significant problem, I think, across 
private industry as well as the Government. It is a very 
difficult area. It is often beyond the cutting edge and the 
people trying to breach security are sometimes as adept as the 
people trying to stop them. In addition, frankly there's a lot 
of sloppiness in systems. So you need to be careful how your 
system connects with other people's systems to make sure that 
you don't inherit the sloppiness.
    Mrs. Morella. Did you want to comment on that, Mr. Cohen?
    Mr. Cohen. I would agree. Obviously security is for all of 
us a very significant issue. But I can only really speak for 
our own agency and the efforts that we take to assure that 
there aren't breaches and the like. I'm not in a position to 
comment on what is happening in other agencies in this area.
    Mrs. Morella. Just as we continue to work on the telework 
programs, I think it is a very important facet that should 
always be considered.
    Thank you very much. Thank you, Madam Chairman.
    Mrs. Jo Ann Davis of Virginia [presiding]. Thank you. Mr. 
Wolf.
    Mr. Wolf. Thank you very much. It's been a good hearing. I 
appreciate the committee holding it. It gives us kind of a 
baseline to operate from.
    Just a couple of really fast thoughts. One, I am pleased 
that FRA is doing a good job, since as chairman of the 
Transportation Appropriations, it is good to see that and I 
appreciate that, and please take it back to the people at FRA 
that I'm glad that you're leading the way.
    Second, I believe that you ought to consider bringing 
AT&T--I did not hear your testimony but I read it all. You 
ought to bring AT&T before all the human resources people in 
the government. I mean, they have done an outstanding job. If 
only half of what they have done is accurate, they have done an 
outstanding job, and I know Alice Perelly from AT&T. You all 
have really led the way. I'm going to have to change my 
speeches. I used to say 22 percent of your people were doing 
it. Here you're far beyond that. I was reading some old data. I 
think they ought to be brought in and put a half a day for all 
of the personnel officers in the Federal Government, 
particularly here in the Washington, DC area, but as you bring 
them in from around the country, and maybe you ought to just 
contract out with them and ask them to help you design a 
program because there's no sense in reinventing the wheel.
    Last, I think you need a telework czar, perhaps for the 
government, but maybe for every agency. The reason I'm so 
interested in this, one, we are in gridlock in the region. We 
are the second most congested region in the Nation. The George 
Mason study shows that for every 1 percent of the people we get 
to take out of their cars, we reduce traffic congestion by 3 
percent. Three percent, just 3 percent, AT&T is well beyond 
that, just 3 percent. Reduce traffic congestion by 10 percent. 
A survey of the traffic on Friday mornings, you know how Friday 
is lighter than any other day, Friday mornings is what they 
call the Friday effect. Friday traffic is down to 4; 4.5 
percent on Monday, Tuesday Wednesday and Thursday. If we got 3 
percent more to telework, we get beyond the Friday effect. We 
double the Friday effect, if you will, the goodness of it.
    Second, it gives people control over their own lives. I had 
a person in my office the other day, a Federal employee, leaves 
his house at 5 a.m., gets home about 7 p.m. We cannot continue 
to have families living in conditions that people are on the 
road for an hour to an hour and a half each way. Now, you can 
do that for 2 or 3 days a week, but you can't do it 5 days a 
week and be a mom or a dad. You just can't do that. Physically 
you can't do it. You can rationalize you have quality time but 
no quantity time, but if there's no quantity there's no 
quality. Families are unraveling, and so in this area--also, if 
you read the AT&T testimony it deals with sprawl. It deals with 
growth and that's been an issue that everyone has been 
concerned about.
    So from productivity, you maintain the bold statement in 
one of your pages here that the performance is actually higher, 
higher. Well, if it is higher, let's say it is not higher, it 
is as high, so there's almost no reason. So I think you really 
need to have a czar or a person who's responsible. If you 
believe the AT&T, as it gets going it will then take off on its 
own.
    We had the same resistance. We did onsite child care. We 
had every reason why it couldn't happen. We asked you to do 
leave sharing. You told us you couldn't do leave sharing. I put 
an amendment and now leave sharing is the rule. We had job 
sharing. Couldn't share the same jobs. Now there is just a 
resistance, a resistance, and I maintain that the people would 
like to have that opportunity, and I'm constantly hearing, and 
I believe it to be true, that the recruitment and the retention 
in the number of senior people who will be leaving in the next 
5 years is so overwhelming, maybe the Bush administration ought 
to have a Hoover Commission to look at the whole issue of how 
we retain and recruit good people to come in and work in 
government. Government service is important. It is really 
important. I mean whether it be, you know, the NIH or whether 
it be wherever the case may be, who you have makes all the 
difference. Personnel is policy and so we need the very best. 
This is a major, major tool.
    So I think that OPM--is OPM close to appointing somebody to 
be the Administrator of OPM?
    Mr. Cohen. Yes, sir. President Bush has indicated his 
intent to nominate an individual yesterday, Mrs. Kay Coles 
James.
    Mr. Wolf. Well, she's an outstanding person. I know her 
very, very well. She was chairman of the national gambling 
commission we established and really--worked at HEW or----
    Mr. Cohen. HHS.
    Mr. Wolf. It was HEW when my wife worked there, but HHS 
now. If you could pass the word when she's confirmed or 
whatever, we'd like to sit down with her, but I think OPM is 
either going to have to lead on this and maybe force these 
other agencies or the other agencies do the same thing 
agencywide, and you know how you all intimidate people with 
your thermometer about how many people are giving to the UGF 
and the combined fund. You might do the same thing with regard 
to how we are doing with regard to telework. I think the 
employees will really grab on, the productivity will be higher. 
I think you ought to get AT&T and some of the other companies 
that are really doing it to come in and show you that it is not 
a danger. It is really a good, good thing.
    I want to thank the committee for having the hearing.
    Mr. Tom Davis of Virginia [presiding]. Thank you, Mr. Wolf, 
and thank you for your leadership on this issue. I'll just add, 
Mrs. James was my school board appointee when I was chairman of 
the county board. We used to appoint the school board members 
in Fairfax, unfortunately. So I look forward to working with 
her.
    A couple of things from the AT&T testimony that stand out 
and I think complement what Representative Wolf just said. One 
is that among the AT&T teleworkers who have been offered other 
jobs, about two-thirds reported giving up an AT&T telework 
environment was a factor in their decision to remain with the 
company. So from a government retention point of view, I mean I 
think that's something we really need to look at because we are 
competing with a very aggressive private sector here, 
particularly in the Washington region, in some of these areas.
    And second, the other fact noted is one of the most 
surprising statistics developed, is that virtual office 
managers are more likely to be rated in the very highest 
performance management category as measured by the formal 
managerial appraisal than their office bound peers.
    And so we know at least in the private sector it works, and 
it works well, and we are just trying to bring some of the 
devices we see working around the globe in other areas to 
government.
    Let me ask Mr. Young a couple of questions. Several 
constituents have told me that Federal contractors find the 
current Federal Government attitude toward telework is an 
impediment to their fulfillment of government contracts. I've 
drafted a bill that would to the maximum extent possible 
prohibit the government from restricting employees on a 
specific work site. In your personal and professional 
experience, have you found that such a bill might be helpful?
    Mr. Young. Oh, absolutely, sir. My experience over the last 
three jobs I've had in the last 10 years, I come in and as a 
reasonable accommodation I ask about being able to work from 
home part of the time. Typically what happens is as I start to 
show up at the office half the time and work half the time at 
home, many of my colleagues will say how do you do that, what's 
going on, gee, I'd really like to do that, and as soon as they 
go to their supervisors, they run into the same issues that 
we've heard here before: I don't know how to manage that. I 
want to see your face in here bright and early in the morning. 
I want to see you doing things, being active. I don't know how 
to manage my objectives. I don't know how to give you these 
tasks, but then I measure when you get back to me with that 
task accomplished. So it is the same kind of fear. It is the 
same kind of lack of knowledge about how to manage the employee 
when you're not in a face-to-face relationship.
    Additionally, a lot of managers aren't comfortable with the 
technology that many teleworkers use almost by instinct. There 
are ways to communicate with your supervisor that don't mean 
eyeball-to-eyeball kinds of interaction.
    Mr. Tom Davis of Virginia. Is there a generation gap in 
some of this you think?
    Mr. Young. Yeah, I'm certain there is, but it is more of 
I'm comfortable with technology, I'm doing things and my boss 
has a black and white TV back at the homestead and, you know, 
they get four channels and they're happy with that. The rest of 
us go on HDTV with a connection with a satellite, and you know 
surfing through 1,000 channels, not at work I should add, but 
you know very comfortable with how technology works and working 
within the technology.
    Mr. Tom Davis of Virginia. Thank you.
    Ms. Alcott, I was intrigued by your testimony in terms of 
utilization. You talk to these people every day that use this.
    Ms. Alcott. Yes.
    Mr. Tom Davis of Virginia. What are the one or two things 
we can really do that--they'd like to be doing this more, 
wouldn't they, the people?
    Ms. Alcott. Absolutely. I just yesterday spoke with a DOD 
employee who used to work in Crystal City, and then NAVSEA 
moved down to the Navy Yard, and he was talking about how much 
worse his commute is. And he currently is only allowed to 
telecommute 1 day per week, and he would very much love to 
telecommute more than 1 day per week. So I think that----
    Mr. Tom Davis of Virginia. He would do it 4 or 5 days if he 
could?
    Ms. Alcott. Oh, yeah. Encouraging an increase in the number 
of days per week that employees are allowed to telecommute 
would be a great benefit to both the agency and the employee 
because, as has been discussed, when one person does it 1 day a 
week it is an anomaly. When more than one person does it more 
than 1 day a week, it becomes part of the culture.
    Mr. Tom Davis of Virginia. This may surprise some of you, 
but they are looking at local ordinances in jurisdictions 
around Washington that mandate telecommuting in private 
companies. Because of your Clean Air Act attainment standard, 
you've got to get people off the road, not just traffic related 
now, it is air relate d, and they're putting it on private 
companies and the companies grumble a little bit, but they're 
complying with it, and here we are at the Federal level who 
mandates these laws to the locality and what are we doing about 
it? We are talking about it.
    Ms. Alcott. It is interesting to note that the Metropolitan 
Washington Council of Governments did some measurements on 
emissions and they found that teleworking by great degrees was 
the largest contributor to the reduction of emissions in all of 
the transportation mitigation measures.
    Mr. Tom Davis of Virginia. We've got to get some 
environmentalists up here next time testifying, too. But I 
think we all understand and agree that we need to make this 
work, that there are just a lot of good can come out of this, 
there are a lot of people who can do their job as well or 
better telecommuting, gets them off the road, helps us maybe 
recruit some people and we will retain some people in 
government that we are currently not doing if we do this right. 
There's a fear of doing it wrong, of letting some people say, 
``Yeah, I'm at the telecommunications center and they're on the 
fourth tee.''
    I understand the fear. But as we have seen with the 
experience of AT&T and other companies that have tried this, 
the good really outweighs the bad if it is done appropriately. 
I think the key is just priorities. You have got to make it a 
priority, and my sympathy is to government managers who get 
just inundated with additional rules and regulations from 
Congress, from the executive branch telling them to do all this 
different, and it just becomes an item on a punch list.
    But we are here today, and Mr. Wolf has made it clear, it 
is a part of the appropriations process, and that's CJS, that's 
a lot of agencies right there that they're going to be held 
accountable, and this is the time where with the appropriate 
leadership we can make a big difference in these areas by 
fostering more telecommuting.
    Let me ask Mrs. Davis, do you have any other questions? I 
could prolong this, but I want to get everybody back. It is not 
Friday, is it, it is only Thursday so I want the make sure we 
get everything else. Anything else anybody wants to add for the 
record out here? Maybe you want to rebut something we said or 
react in any way.
    If not, let me just say I want to take a moment to thank 
everybody for attending our subcommittee's first hearing. I 
want to thank the witnesses and I want to thank Congressman 
Turner, Congressman Wolf, other Members for participating. Mrs. 
Davis, thank you for being here, and thank you for bringing us 
this witness from Fredericksburg. I think she added a lot of 
the colloquy today. I want to thank my staff for organizing 
this. I think it's been a very, very productive hearing.
    I'm going to enter into the record the briefing memo that 
was distributed to subcommittee members.
    We will hold the record open for 2 weeks from this day for 
anybody who might want to forward additional submissions for 
possible inclusion, and these proceedings are closed.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T2126.064

[GRAPHIC] [TIFF OMITTED] T2126.065

[GRAPHIC] [TIFF OMITTED] T2126.066

[GRAPHIC] [TIFF OMITTED] T2126.067

[GRAPHIC] [TIFF OMITTED] T2126.068

                                   - 
</pre></body></html>
